 Department of Health and Human Services
                    OFFICE OF
               INSPECTOR GENERAL




 OREGON CLAIMED UNALLOWABLE
FEDERAL MEDICAID REIMBURSEMENT
 BY NOT BILLING MANUFACTURERS
     FOR REBATES FOR SOME
 PHYSICIAN-ADMINISTERED DRUGS


   Inquiries about this report may be addressed to the Office of Public Affairs at
                            Public.Affairs@oig.hhs.gov.




                                                    Gloria L. Jarmon
                                                 Deputy Inspector General

                                                         April 2014
                                                       A-09-12-02080
                        Office of Inspector General
                                         https://oig.hhs.gov



The mission of the Office of Inspector General (OIG), as mandated by Public Law 95-452, as amended, is
to protect the integrity of the Department of Health and Human Services (HHS) programs, as well as the
health and welfare of beneficiaries served by those programs. This statutory mission is carried out
through a nationwide network of audits, investigations, and inspections conducted by the following
operating components:

Office of Audit Services

The Office of Audit Services (OAS) provides auditing services for HHS, either by conducting audits with
its own audit resources or by overseeing audit work done by others. Audits examine the performance of
HHS programs and/or its grantees and contractors in carrying out their respective responsibilities and are
intended to provide independent assessments of HHS programs and operations. These assessments help
reduce waste, abuse, and mismanagement and promote economy and efficiency throughout HHS.

Office of Evaluation and Inspections
The Office of Evaluation and Inspections (OEI) conducts national evaluations to provide HHS, Congress,
and the public with timely, useful, and reliable information on significant issues. These evaluations focus
on preventing fraud, waste, or abuse and promoting economy, efficiency, and effectiveness of
departmental programs. To promote impact, OEI reports also present practical recommendations for
improving program operations.

Office of Investigations
The Office of Investigations (OI) conducts criminal, civil, and administrative investigations of fraud and
misconduct related to HHS programs, operations, and beneficiaries. With investigators working in all 50
States and the District of Columbia, OI utilizes its resources by actively coordinating with the Department
of Justice and other Federal, State, and local law enforcement authorities. The investigative efforts of OI
often lead to criminal convictions, administrative sanctions, and/or civil monetary penalties.

Office of Counsel to the Inspector General
The Office of Counsel to the Inspector General (OCIG) provides general legal services to OIG, rendering
advice and opinions on HHS programs and operations and providing all legal support for OIG’s internal
operations. OCIG represents OIG in all civil and administrative fraud and abuse cases involving HHS
programs, including False Claims Act, program exclusion, and civil monetary penalty cases. In
connection with these cases, OCIG also negotiates and monitors corporate integrity agreements. OCIG
renders advisory opinions, issues compliance program guidance, publishes fraud alerts, and provides
other guidance to the health care industry concerning the anti-kickback statute and other OIG enforcement
authorities.
                         Notices


    THIS REPORT IS AVAILABLE TO THE PUBLIC
              at https://oig.hhs.gov

 Section 8L of the Inspector General Act, 5 U.S.C. App., requires
 that OIG post its publicly available reports on the OIG Web site.

OFFICE OF AUDIT SERVICES FINDINGS AND OPINIONS

 The designation of financial or management practices as
 questionable, a recommendation for the disallowance of costs
 incurred or claimed, and any other conclusions and
 recommendations in this report represent the findings and
 opinions of OAS. Authorized officials of the HHS operating
 divisions will make final determination on these matters.
                                      EXECUTIVE SUMMARY

 During 2010, Oregon claimed Federal reimbursement of $2.3 million that was
 unallowable and $1.1 million that may have been unallowable because it did not comply
 with Federal Medicaid requirements for billing manufacturers for rebates for some
 physician-administered drugs.

WHY WE DID THIS REVIEW

For a covered outpatient drug to be eligible for Federal reimbursement under the Medicaid
program’s drug rebate requirements, manufacturers must pay rebates to the States. States bill the
manufacturers for the rebates to reduce the cost of the drugs to the program. However, a recent
Office of Inspector General review found that States did not always bill and collect all rebates
due for drugs administered by physicians.

Our objective was to determine whether the Oregon Health Authority, Division of Medical
Assistance Programs (State agency), complied with Federal Medicaid requirements for billing
manufacturers for rebates for physician-administered drugs.

BACKGROUND

The Medicaid drug rebate program became effective in 1991 (the Social Security Act, § 1927).
For a covered outpatient drug to be eligible for Federal reimbursement under the program, the
manufacturer must enter into a rebate agreement with the Centers for Medicare & Medicaid
Services (CMS) and pay quarterly rebates to the States. The Deficit Reduction Act of 2005
amended section 1927 of the Social Security Act to specifically address the collection of rebates
on physician-administered drugs. To collect these rebates, States submit to the manufacturers
the drug utilization data containing National Drug Codes (NDCs) for all single-source and the
top 20 multiple-source physician-administered drugs. Federal reimbursement for covered
outpatient drugs administered by a physician is not available to States that do not comply with
Federal requirements for capturing NDCs to bill and collect rebates.

In Oregon, the State agency is responsible for billing and collecting Medicaid drug rebates for
physician-administered drugs. The State agency contracts with a contractor to bill for rebates.
The contractor uses the State agency’s claim data for physician-administered drugs to bill
manufacturers quarterly and to maintain a record of rebate accounts receivable due from the
manufacturers. This review covers Medicaid fee-for-service claims for physician-administered
drugs paid in calendar year (CY) 2010.

WHAT WE FOUND

During CY 2010, the State agency did not always comply with Federal Medicaid requirements
for billing manufacturers for rebates for physician-administered drugs. Of the $11,673,687 in
paid claims reviewed, the State agency properly billed for rebates associated with $6,176,013.
However, the State agency did not bill for rebates associated with $5,497,674:



Oregon’s Billing of Manufacturers for Rebates for Physician-Administered Drugs (A-09-12-02080)      i
    •   The State agency did not have NDCs (or, in some cases, did not have validated NDCs) to
        submit drug utilization data to bill rebates for claim lines totaling $3,705,827, consisting
        of $3,219,708 for claim lines that we identified for single-source drugs and $486,119 for
        claim lines that we identified for top-20 multiple-source drugs. As a result, the State
        agency improperly claimed reimbursement for $3,705,827 ($2,326,099 Federal share) for
        these claim lines.

    •   We were unable to determine the portion of $1,791,847 ($1,124,628 Federal share) for
        which the State agency may have improperly claimed reimbursement. This amount
        included claim lines for drugs for which there was insufficient information to determine
        whether the drugs were eligible for rebates.

The State agency did not always bill manufacturers for rebates because the State agency’s
Medicaid Management Information System (MMIS) did not have an edit to ensure that NDCs
were present on drug claims or an edit to validate NDCs if submitted. State agency officials
stated that they thought NDC edits would be included in the MMIS when it became operational
in December 2008. However, the State agency informed us that it did not implement these edits
until July 1, 2011. The State agency also informed us that in December 2012, it retroactively
billed for rebates associated with claims for physician-administered drugs paid since
July 1, 2011.

WHAT WE RECOMMEND

We recommend that the State agency:

    •   refund to the Federal Government $2,326,099 (Federal share) for claim lines for single-
        source and top-20 multiple-source physician-administered drugs that were ineligible for
        Federal reimbursement;

    •   work with CMS to determine the portion of the $1,124,628 (Federal share) for other
        claim lines for physician-administered drugs that was ineligible for Federal
        reimbursement and refund that amount;

    •   work with CMS to determine and refund the unallowable Federal reimbursement for any
        physician-administered drugs claimed without NDCs and not billed for rebates before
        January 1, 2010, and after December 31, 2010;

    •   verify that the NDC edits implemented on July 1, 2011, ensure that NDCs are present and
        validated for payment on all drug claims; and

    •   ensure that all physician-administered drugs eligible for rebates are processed for rebates.




Oregon’s Billing of Manufacturers for Rebates for Physician-Administered Drugs (A-09-12-02080)     ii
STATE AGENCY COMMENTS AND OUR RESPONSE

In written comments on our draft report, the State agency concurred with our first
recommendation that it refund the Federal share for claim lines for single-source and top-20
multiple-source physician-administered drugs that were ineligible for Federal reimbursement.
However, the State agency did not concur with the refund amount and provided information on
actions that it had taken since our audit. The State agency concurred with the four remaining
recommendations and described corrective actions that it had taken or planned to take.

We did not audit the State agency’s actions because they were after our audit period; therefore,
we did not revise the refund amount in our first recommendation.




Oregon’s Billing of Manufacturers for Rebates for Physician-Administered Drugs (A-09-12-02080)     iii
                                                     TABLE OF CONTENTS


INTRODUCTION .......................................................................................................................1

           Why We Did This Review ...............................................................................................1

           Objective ..........................................................................................................................1

           Background ......................................................................................................................1
                 Medicaid Drug Rebate Program ..........................................................................1
                 Physician-Administered Drugs ............................................................................2
                 The State Agency’s Medicaid Drug Rebate Program ..........................................2

           How We Conducted This Review....................................................................................3

FINDINGS ...................................................................................................................................4

           Federal and State Requirements.......................................................................................4

           The State Agency Did Not Bill Manufacturers for Rebates as Required
            for Federal Reimbursement on Some Physician-Administered Drugs .........................5

           The State Agency Did Not Bill Manufacturers for Rebates That May Have Been
            Required for Federal Reimbursement on Other Physician-Administered Drugs .........5

           The Medicaid Management Information System Lacked
            National Drug Code Edits .............................................................................................6

RECOMMENDATIONS .............................................................................................................6

STATE AGENCY COMMENTS AND
 OFFICE OF INSPECTOR GENERAL RESPONSE ...............................................................7

APPENDIXES

           A: Related Office of Inspector General Reports .............................................................8

           B: Audit Scope and Methodology...................................................................................9

           C: Audit Methodology Flowchart ...................................................................................11

           D: Federal and State Requirements Related to Physician-Administered Drugs .............12

           E: State Agency Comments ............................................................................................14




Oregon’s Billing of Manufacturers for Rebates for Physician-Administered Drugs (A-09-12-02080)                                                     iv
                                                INTRODUCTION

WHY WE DID THIS REVIEW

For a covered outpatient drug to be eligible for Federal reimbursement under the Medicaid
program’s drug rebate requirements, manufacturers must pay rebates to the States. States bill the
manufacturers for the rebates to reduce the cost of the drugs to the program. However, a recent
Office of Inspector General review found that States did not always bill and collect all rebates
due for drugs administered by physicians. 1 (Appendix A lists previous reviews of the Medicaid
drug rebate program.)

OBJECTIVE

Our objective was to determine whether the Oregon Health Authority, Division of Medical
Assistance Programs (State agency), complied with Federal Medicaid requirements for billing
manufacturers for rebates for physician-administered drugs.

BACKGROUND

Medicaid Drug Rebate Program

The Medicaid drug rebate program became effective in 1991 (the Social Security Act (the Act),
§ 1927). For a covered outpatient drug to be eligible for Federal reimbursement under the
program, the drug’s manufacturer must enter into a rebate agreement with the Centers for
Medicare & Medicaid Services (CMS) and pay quarterly rebates to the States. CMS, the States,
and drug manufacturers each have specific functions under the program.

Manufacturers are required to submit a list to CMS of all covered outpatient drugs and to report
each drug’s average manufacturer price and, where applicable, best price. 2 On the basis of this
information, CMS calculates a unit rebate amount for each drug and provides the information to
the States each quarter. Covered outpatient drugs reported by participating drug manufacturers
are listed in the CMS Medicaid Drug File, which identifies drugs with such fields as National
Drug Code (NDC), unit type, units per package size, and product name.

Section 1903(i)(10) of the Act prohibits Federal reimbursement for States that do not capture the
information necessary for billing manufacturers for rebates as described in section 1927 of the
Act. To bill for rebates, States must capture drug utilization data that identify, by NDC, the
number of units of each drug for which the States reimbursed Medicaid providers and must
report the information to the manufacturers (the Act, § 1927(b)(2)(A)). The number of units is
multiplied by the unit rebate amount to determine the actual rebate amount due from each
manufacturer.



1
    States’ Collection of Medicaid Rebates for Physician-Administered Drugs (OEI-03-09-00410), issued June 2011.
2
    Section 1927(b) of the Act and section II of the Medicaid rebate agreement.


Oregon’s Billing of Manufacturers for Rebates for Physician-Administered Drugs (A-09-12-02080)                     1
States report drug rebate accounts receivable data to CMS on the Medicaid Drug Rebate
Schedule. This schedule is part of the Quarterly Medicaid Statement of Expenditures for the
Medical Assistance Program report, which contains a summary of actual Medicaid expenditures
for each quarter and is used by CMS to reimburse States for the Federal share of Medicaid
expenditures.

Physician-Administered Drugs

Drugs administered by a physician are typically billed to the Medicaid program on a claim form
using Healthcare Common Procedure Coding System (HCPCS) codes. For purposes of the
Medicaid drug rebate program, single-source drugs are those covered outpatient drugs produced
or distributed under an original new drug application approved by the Food and Drug
Administration (FDA). 3 Multiple-source drugs are defined, in part, as those covered outpatient
drugs that have at least one other drug rated as therapeutically equivalent by FDA. 4

The Deficit Reduction Act of 2005 amended section 1927 of the Act to specifically address the
collection of rebates on physician-administered drugs. To collect the rebates, States submit to
the manufacturers the NDCs for single-source and the top 20 multiple-source physician-
administered drugs. Beginning on January 1, 2007, CMS was responsible for publishing
annually the list of the top 20 multiple-source drugs by HCPCS codes that had the highest dollar
volume dispensed. Before the Deficit Reduction Act, many States did not collect rebates on
physician-administered drugs if the drug claims did not contain NDCs. NDCs allow States to
identify the drug and its manufacturer to collect drug rebates.

The State Agency’s Medicaid Drug Rebate Program

The State agency is responsible for paying claims and collecting Medicaid drug rebates for
physician-administered drugs. The State agency requires providers to submit NDCs on claims
for physician-administered drugs. Since 2008, the State agency’s Medicaid Management
Information System (MMIS) has been able to store NDCs submitted by providers, but these
provider-submitted NDCs were not validated (i.e., the NDCs were not checked for rebate
eligibility) and were not used to bill for rebates. The State agency informed us that it did not
implement NDC edits in the MMIS until July 1, 2011. These edits require an NDC to be present
and valid on claims for physician-administered drugs and will deny payment for claims
submitted without NDCs. 5




3
    Section 1927(k)(7) of the Act. Single-source drugs are commonly referred to as “brand-name” drugs.
4
  Section 1927(k)(7) of the Act. According to the definition of “therapeutic equivalence” in the FDA glossary of
terms, a therapeutic equivalent drug product can be substituted with another product to achieve the same clinical
effect as the prescribed drug. http://www.fda.gov/drugs/informationondrugs/ucm079436.htm. Accessed on
December 16, 2013.
5
    Denial of payment for claims submitted without NDCs applies to fee-for-service claims.


Oregon’s Billing of Manufacturers for Rebates for Physician-Administered Drugs (A-09-12-02080)                      2
The State agency contracts with Hewlett Packard Enterprise Services (the contractor) to manage
its drug rebate program. 6 During our audit period, the State agency did not rely on the NDCs
submitted by providers; instead, the State agency used its contractor’s proprietary HCPCS-to-
NDC crosswalk to assign NDCs to HCPCS codes on some drug claim lines. 7 Using these
assigned NDCs, the contractor identified the rebatable units, calculated the rebates due on the
basis of CMS’s unit rebate amount, and billed the manufacturers by NDC for rebates on drugs
listed on its crosswalk.

The manufacturers pay the rebates directly to the State agency. The State agency forwards the
payment information to the contractor, which posts the information in the State agency’s MMIS.
The contractor maintains accounts receivable information and works with manufacturers to
resolve any unpaid rebates. 8

HOW WE CONDUCTED THIS REVIEW

Our audit covered $17,317,044 of State agency fee-for-service claims for physician-administered
drugs paid in calendar year (CY) 2010. 9 We excluded from our review $5,643,357 of certain
fee-for-service claims, such as claims that are exempt from Medicaid drug rebates (i.e., provider
claims under the 340B Drug Pricing Program). 10 Therefore, we reviewed $11,673,687 of
fee-for-service claims for physician-administered drugs.

We conducted this performance audit in accordance with generally accepted government
auditing standards. Those standards require that we plan and perform the audit to obtain
sufficient, appropriate evidence to provide a reasonable basis for our findings and conclusions
based on our audit objectives. We believe that the evidence obtained provides a reasonable basis
for our findings and conclusions based on our audit objectives.

Appendix B contains the details of our audit scope and methodology, and Appendix C shows our
audit methodology in flowchart form.




6
 The contractor also manages the State agency’s pharmacy drug-rebate processes; however, this review does not
cover the pharmacy claim and rebate processes.
7
    A claim line represents one physician-administered drug service. Claims may include more than one claim line.
8
 The invoices and accounts receivable identify drugs by NDC and do not distinguish between pharmacy and
physician-administered drugs.
9
 We plan to review in a separate report the drug utilization data of Medicaid managed-care organizations for
physician-administered drugs paid in CY 2010.

10
  Drug manufacturers are not required to pay rebates under the Medicaid drug rebate program for covered
outpatient drugs that are subject to discounted pricing under the 340B Drug Pricing Program (42 U.S.C.
§ 256b(a)(5)).


Oregon’s Billing of Manufacturers for Rebates for Physician-Administered Drugs (A-09-12-02080)                      3
                                                    FINDINGS

During CY 2010, the State agency did not always comply with Federal Medicaid requirements
for billing manufacturers for rebates for physician-administered drugs. Of the $11,673,687 in
paid claims reviewed, the State agency properly billed for rebates associated with $6,176,013. 11
However, the State agency did not bill for rebates associated with $5,497,674:

     •   The State agency did not have NDCs (or, in some cases, did not have validated NDCs) to
         submit drug utilization data to bill rebates for claim lines totaling $3,705,827, consisting
         of $3,219,708 for claim lines that we identified for single-source drugs and $486,119 for
         claim lines that we identified for top-20 multiple-source drugs. As a result, the State
         agency improperly claimed reimbursement for $3,705,827 ($2,326,099 Federal share) for
         these claim lines.

     •   We were unable to determine the portion of $1,791,847 ($1,124,628 Federal share) for
         which the State agency may have improperly claimed reimbursement. This amount
         included claim lines for drugs for which there was insufficient information to determine
         whether the drugs were eligible for rebates.

The State agency did not always bill manufacturers for rebates because the State agency’s MMIS
did not have an edit to ensure that NDCs were present on drug claims or an edit to validate
NDCs if submitted. State agency officials stated that they thought NDC edits would be included
in the MMIS when it became operational in December 2008. However, the State agency
informed us that it did not implement these edits until July 1, 2011. The State agency also
informed us that in December 2012, it retroactively billed for rebates associated with claims for
physician-administered drugs paid since July 1, 2011.

FEDERAL AND STATE REQUIREMENTS

The Deficit Reduction Act amended section 1927 of the Act to specifically address the collection
of rebates on physician-administered drugs. States must capture NDCs for single-source and
top-20 multiple-source drugs (the Act, § 1927(a)(7)(C)). Federal regulations prohibit Federal
reimbursement for physician-administered drugs unless the States submit to manufacturers drug
utilization data containing the NDCs (42 CFR § 447.520).

Oregon’s Medical-Surgical Services Administrative Rule 410-130-0180, dated July 1, 2009,
requires both the NDC and HCPCS code on all claim forms for drug reimbursement. Through
its information memorandum transmittals, the State agency notified providers to submit NDCs
on claims for physician-administered drugs.

Appendix D contains Federal and State requirements related to physician-administered drugs.




11
  We traced the $6,176,013 in claim lines to a rebate claim file that the contractor used to bill manufacturers for
rebates.


Oregon’s Billing of Manufacturers for Rebates for Physician-Administered Drugs (A-09-12-02080)                        4
THE STATE AGENCY DID NOT BILL MANUFACTURERS FOR REBATES AS
REQUIRED FOR FEDERAL REIMBURSEMENT ON SOME PHYSICIAN-
ADMINISTERED DRUGS

The State agency improperly claimed Federal reimbursement for $3,705,827 ($2,326,099 Federal
share) for 23,332 claim lines for which it did not bill manufacturers for rebates. The State
agency did not have NDCs for 77 percent of these claim lines because the State agency did not
ensure that providers submitted NDCs for claims for physician-administered drugs. For the
claim lines that had NDCs, the State agency did not validate the NDCs.

The claim lines that the State agency provided to us identified the drugs by HCPCS codes. We
used CMS’s Medicare Part B crosswalk to match the HCPCS codes to NDCs listed in the CMS
Medicaid Drug File. 12 We determined that the State agency paid:

     •   $3,219,708 ($2,020,959 Federal share) for 3,342 claim lines for single-source drugs
         administered by physicians and

     •   $486,119 ($305,140 Federal share) for 19,990 claim lines for top-20 multiple-source
         drugs administered by physicians.

Because the State agency lacked NDCs for the majority of its drug utilization data and could not
validate the NDCs that were available, it did not bill for rebates. We verified that these claim
lines were not billed for rebates. As a result, $2,326,099 was not eligible for Federal
reimbursement.

THE STATE AGENCY DID NOT BILL MANUFACTURERS FOR REBATES THAT
MAY HAVE BEEN REQUIRED FOR FEDERAL REIMBURSEMENT ON OTHER
PHYSICIAN-ADMINISTERED DRUGS

We were unable to determine whether the State agency improperly claimed Federal
reimbursement for $1,791,847 ($1,124,628 Federal share) for 21,468 claim lines paid for
physician-administered drugs because there was insufficient information to determine whether
the drugs were eligible for rebates. The State agency did not have NDCs for 87 percent of these
claim lines or did not validate the NDCs submitted. As a result, the State agency did not bill
manufacturers for rebates.

     •   The State agency paid $1,610,145 ($1,010,577 Federal share) for 17,378 claim lines
         submitted for drugs for which the HCPCS codes had multiple NDCs. For example, for
         one claim line, one HCPCS code had five associated NDCs, of which only two NDCs
         were single-source drugs and eligible for rebates. Because the claim line did not have the
         specific NDC, it did not have sufficient information to determine whether the drug was
         eligible for rebate.


12
  CMS instructed States that they could use the Medicare Part B crosswalk as a reference because HCPCS codes
and NDCs are standardized codes. We used this crosswalk to match the HCPCS codes to NDCs listed in the CMS
Medicaid Drug File.


Oregon’s Billing of Manufacturers for Rebates for Physician-Administered Drugs (A-09-12-02080)                 5
    •   The State agency paid $181,702 ($114,051 Federal share) for 4,090 claim lines submitted
        for drugs for which the HCPCS codes did not appear on CMS’s Medicare Part B
        crosswalk or the contractor’s crosswalk. Because the HCPCS codes did not appear on
        the crosswalks, we could not determine the NDCs. Therefore, we could not determine
        whether the drugs were eligible for rebate.

Accordingly, we set aside $1,791,847 ($1,124,628 Federal share) for CMS’s resolution.

THE MEDICAID MANAGEMENT INFORMATION SYSTEM LACKED
NATIONAL DRUG CODE EDITS

The State agency required providers to include NDCs on claims for physician-administered
drugs. However, the providers did not submit NDCs for 82 percent of the claims in our review,
and the State agency’s MMIS did not have an edit to require the submission of NDCs. For
claims submitted with NDCs, the MMIS did not have an edit to validate the NDCs.

The State agency informed us that it did not implement NDC edits until July 1, 2011. These
edits require an NDC to be present and valid on claims for reimbursement for physician-
administered drugs. The State agency also informed us that in December 2012, it retroactively
billed for rebates associated with claims for physician-administered drugs paid since
July 1, 2011. We did not verify the effectiveness of the NDC edits because the implementation
date was after our audit period.

For some claims, we found that the contractor could have billed for rebates using its crosswalk.
However, the State agency explained that these claims were not billed for rebates because of a
lack of oversight. According to the State agency, it is working with its contractor to ensure that
all rebates are billed.

                                       RECOMMENDATIONS

We recommend that the State agency:

    •   refund to the Federal Government $2,326,099 (Federal share) for claim lines for single-
        source and top-20 multiple-source physician-administered drugs that were ineligible for
        Federal reimbursement;
    •   work with CMS to determine the portion of the $1,124,628 (Federal share) for other
        claim lines for physician-administered drugs that was ineligible for Federal
        reimbursement and refund that amount;
    •   work with CMS to determine and refund the unallowable Federal reimbursement for any
        physician-administered drugs claimed without NDCs and not billed for rebates before
        January 1, 2010, and after December 31, 2010;
    •   verify that the NDC edits implemented on July 1, 2011, ensure that NDCs are present and
        validated for payment on all drug claims; and
    •   ensure that all physician-administered drugs eligible for rebates are processed for rebates.


Oregon’s Billing of Manufacturers for Rebates for Physician-Administered Drugs (A-09-12-02080)       6
                              STATE AGENCY COMMENTS AND
                         OFFICE OF INSPECTOR GENERAL RESPONSE

In written comments on our draft report, the State agency concurred with our first
recommendation that it refund the Federal share for claim lines for single-source and top-20
multiple-source physician-administered drugs that were ineligible for Federal reimbursement.
However, the State agency did not concur with the refund amount and provided information on
actions that it had taken since our audit. The State agency concurred with the four remaining
recommendations and described corrective actions that it had taken or planned to take. The State
agency’s comments are included in their entirety as Appendix E.

We did not audit the State agency’s actions because they were after our audit period; therefore,
we did not revise the refund amount in our first recommendation.




Oregon’s Billing of Manufacturers for Rebates for Physician-Administered Drugs (A-09-12-02080)     7
       APPENDIX A: RELATED OFFICE OF INSPECTOR GENERAL REPORTS

                    Report Title                              Report Number                 Date Issued
Maryland Claimed Unallowable Federal                           A-03-12-00200              November 2013
Reimbursement for Some Medicaid Physician-
Administered Drugs
Nationwide Rollup Report for Medicaid Drug                     A-06-10-00011                August 2011
Rebate Collections
States’ Collection of Medicaid Rebates for                   OEI-03-09-00410                 June 2011
Physician-Administered Drugs
Follow-Up Audit of the Medicaid Drug Rebate                    A-09-07-00052                March 2008
Program in Oregon
Medicaid Rebates for Physician-Administered                  OEI-03-02-00660                 April 2004
Drugs




Oregon’s Billing of Manufacturers for Rebates for Physician-Administered Drugs (A-09-12-02080)            8
                    APPENDIX B: AUDIT SCOPE AND METHODOLOGY

SCOPE

Our audit covered $17,317,044 of State agency fee-for-service claims for physician-administered
drugs paid in CY 2010. We excluded from our review $5,643,357 of certain fee-for-service
claims, such as claims that are exempt from Medicaid drug rebates (i.e., provider claims under
the 340B Drug Pricing Program). Therefore, we reviewed $11,673,687 of fee-for-service claims
for physician-administered drugs.

Our audit objective did not require an understanding or assessment of the complete internal
structure of the State agency. We limited our internal control review to obtaining an
understanding of the State agency’s processes for and controls over billing for Medicaid rebates
for physician-administered drugs.

We conducted our audit from September 2012 to July 2013 and performed fieldwork at the State
agency office in Salem, Oregon.

METHODOLOGY

To accomplish our objective, we:

    •   reviewed Federal laws, regulations, and guidance pertaining to the Medicaid drug rebate
        program and physician-administered drugs;

    •   interviewed CMS officials about the Federal laws, regulations, and guidance governing
        physician-administered drugs under the Medicaid drug rebate program;

    •   reviewed State agency regulations and guidance to providers, including billing
        instructions for physician-administered drugs;

    •   reviewed State agency policies and procedures for rebates for physician-administered
        drugs;

    •   interviewed State agency and rebate contractor personnel to gain an understanding of the
        administration of and controls over the Medicaid billing and rebate process for physician-
        administered drugs;

    •   obtained from the State agency the HCPCS-NDC crosswalk that its contractor used to
        identify rebate-eligible claims paid in CY 2010;

    •   obtained from the State agency the claims paid in CY 2010 for physician-administered
        drugs;




Oregon’s Billing of Manufacturers for Rebates for Physician-Administered Drugs (A-09-12-02080)     9
     •   obtained from the State agency the rebate claim file that the contractor used to bill
         manufacturers for rebates associated with claims paid in CY 2010 for physician-
         administered drugs;

     •   identified the paid claim details for 44,800 claim lines that the State agency had not billed
         for rebates by:

             o excluding certain fee-for-service claim lines not eligible for rebates,

             o reviewing the remaining claim lines to determine whether they were eligible for
               rebates, and

             o verifying whether the claim lines eligible for rebates were billed for rebates;

     •   identified single-source and multiple-source drug claim lines by:

             o matching the HCPCS codes on the claim lines 13 to the HCPCS codes on the
               Medicare Part B and contractor crosswalks to identify the NDCs associated with
               each HCPCS code and

             o tracing the resulting NDCs to CMS’s Medicaid Drug File to identify whether the
               drugs were single-source or multiple-source;

     •   identified top-20 multiple-source drug claim lines by tracing the HCPCS codes on the
         claim lines to the HCPCS codes on CMS’s top-20 multiple-source drug list;

     •   identified claim lines that we could not determine to be single-source or multiple-
         source; 14 and

     •   discussed the results of our review with the State agency.

We conducted this performance audit in accordance with generally accepted government
auditing standards. Those standards require that we plan and perform the audit to obtain
sufficient, appropriate evidence to provide a reasonable basis for our findings and conclusions
based on our audit objectives. We believe that the evidence obtained provides a reasonable basis
for our findings and conclusions based on our audit objectives.




13
  The majority of the claim lines had no NDCs, and the claim lines with NDCs were not validated or used to bill for
rebates. Therefore, we used the Medicare Part B and contractor crosswalks to identify the associated NDCs for each
of the claim lines.
14
  An HCPCS code may have several NDCs associated with it. Depending on the actual NDC reported, the drug
may be classified as either single-source or multiple-source. The NDC is necessary to determine whether the drug is
single-source or multiple-source. Because we could not determine the NDCs for these drugs, we could not
determine whether the claim lines were eligible for rebates.


Oregon’s Billing of Manufacturers for Rebates for Physician-Administered Drugs (A-09-12-02080)                    10
                  APPENDIX C: AUDIT METHODOLOGY FLOWCHART




Oregon’s Billing of Manufacturers for Rebates for Physician-Administered Drugs (A-09-12-02080)   11
        APPENDIX D: FEDERAL AND STATE REQUIREMENTS RELATED TO
                     PHYSICIAN-ADMINISTERED DRUGS

FEDERAL LAWS

Under the Medicaid program, States may provide coverage for outpatient drugs as an optional
service (the Act, § 1905(a)(12)). Section 1903(a) of the Act provides for Federal financial
participation (Federal share) in State expenditures for these drugs. The Medicaid drug rebate
program, created by the Omnibus Budget Reconciliation Act of 1990 that added section 1927 to
the Act, became effective on January 1, 1991. Manufacturers must enter into a rebate agreement
with the Secretary of Health and Human Services and pay rebates for States to receive Federal
funding for the manufacturer’s covered outpatient drugs dispensed to Medicaid patients (the Act,
§ 1927(a)). Responsibility for the drug rebate program is shared among the drug manufacturers,
CMS, and the States.

Section 6002 of the Deficit Reduction Act added section 1927(a)(7) to the Act to require that
States capture information necessary to secure rebates from manufacturers for certain covered
outpatient drugs administered by a physician. In addition, section 6002 of the Deficit Reduction
Act amended section 1903(i)(10) of the Act to prohibit a Medicaid Federal share for covered
outpatient drugs administered by a physician unless the States submit the utilization and coding
data described in section 1927(a)(7) of the Act.

Section 1927(a)(7) of the Act requires that States collect utilization and coding data necessary to
secure rebates for all single-source physician-administered drugs effective January 1, 2006, and
for the top 20 multiple-source drugs effective January 1, 2008. Section 1927(a)(7)(C) of the Act
stated that, effective January 1, 2007, the utilization data must be submitted using the NDC.

Section 1927(a)(7)(D) of the Act allowed the Secretary to delay any of the above requirements to
prevent hardship to States that required additional time to implement the physician-administered
drug reporting requirements.

FEDERAL REGULATIONS

Federal regulations set conditions for States to obtain a Federal share for covered outpatient
drugs administered by a physician and specifically state that no Federal share is available for
physician-administered drugs for which a State has not required the submission of claims using
codes that identify the drugs sufficiently for the State to bill a manufacturer for rebates (42 CFR
§ 447.520).

Federal regulations in effect during most of the audit period defined a brand-name drug as a
single-source or innovator multiple-source drug and, in a relevant part, a multiple-source drug as
a covered outpatient drug for which there is at least one other drug product that is rated as
therapeutically equivalent (42 CFR § 447.502). 15


15
  On November 15, 2010, CMS amended 42 CFR § 447.502 to remove the definition of multiple-source drug
(75 Fed. Reg. 69591, 69592).


Oregon’s Billing of Manufacturers for Rebates for Physician-Administered Drugs (A-09-12-02080)          12
STATE REGULATIONS AND GUIDANCE

Oregon’s Medical-Surgical Services Administrative Rule 410-130-0180, dated July 1, 2009,
states that drug reimbursement is made to practitioners only when the drug is administered by the
practitioner in the office, the clinic, or home settings. Both the NDC number and HCPCS code
are required on all claim forms.

Oregon’s information memorandum transmittal (IM) 06-208 reminds providers of the
requirement to include the NDC on all electronic claims for physician-administered drugs. It
states: “The new [MMIS], scheduled to go online late in 2007, will automatically deny drug
claims that don’t include the NDC.”

Oregon’s IM 08-201 states that, effective January 1, 2009, NDCs are required on all drug claims.
Before submitting a claim for a physician-administered drug, a provider should verify that the
drug has an approved NDC and is rebatable.

Oregon’s IM 10-153 states that, starting July 1, 2011, Oregon plans to deny fee-for-service
claims for physician-administered drugs that do not include NDC information.




Oregon’s Billing of Manufacturers for Rebates for Physician-Administered Drugs (A-09-12-02080)   13
                         APPENDIX E: STATE AGENCY COMMENTS




Oregon’s Billing of Manufacturers for Rebates for Physician-Administered Drugs (A-09-12-02080)   14
Oregon’s Billing of Manufacturers for Rebates for Physician-Administered Drugs (A-09-12-02080)   15
Oregon’s Billing of Manufacturers for Rebates for Physician-Administered Drugs (A-09-12-02080)   16
